audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants New York State Department of
Environmental Conservation
GR-70-00-001
December 10, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the New York State Department of Environmental Conservation (the Department).  The purpose of the grants is to enhance community policing.  The Department was awarded a total of $1,702,950 to redeploy the equivalent of 68.1 existing full-time officers from administrative duties to community policing.

	We reviewed the Department's compliance with essential grant conditions.  We found the grantee's overall fulfillment of grant conditions to be acceptable.

	Our audit results are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.